NO.
IN THE
SUPREME COURT OF UNITES STA TES
Linda Baldwin,
Petitioner,
V.
Office of Injured Employee, Council
Respondent,
APPLICATION FOR EXTENTION OF TIME OF
WITHIN TO FILE A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFITH CIRCUIT

APPLICATION EXTENTION OF
TIME FILE WRIT OF CERTIORARI

Linda Baldwin, Pro se
7029 Villada Street
Las Vegas, NV 89084
(702) 779-0483
Itistime3@yahoo.com

RECEIVED
OCT 1 3 2021
OFFICE OF THE CLEfIK
SUPREME COURT IIR

APPLICATION FOR AN EXTENSION OF TIME

Pursuant to Rule 13.5 of the Rules of this Court, Applicant Linda Baldwin
Hereby requests a 60-day extension of time within which to file a petition for a writ
of certiorari up to and including Friday, December 4, 2021 of this Court

JUDGMENT FOR WHICH REVIEW IS SOUGHT

The judgment for which review is sought is Linda Baldwin vs. Office of Injured
Employee Counsel (April 15, 2021) (attached as Exhibit 1). The fifth Circuit Appeals Court
State New Orleans, Louisiana denied Applicant’s motion for rehearing or modification on
August 3, 2021 (Attached as Exhibit 2).
JURISDICTION

This Court will have jurisdiction over any timely filed petition for certiorari
In this case pursuant to 28 U.S.C. § 1254 (1). Under Rules 13.1, 13.3, and 30.1 of the
Rules of this Court, a petition for a writ of certiorari was due to be filed on or before
November 3, 2021 in accordance with Rule 13.5, this application is being filed more
than 10 days in advance of the filing date for the petition for a writ of certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME

Applicant respectfully requests a 60-day extension of time within which to file a petition
for a writ of certiorari seeking review of the decision of the fifth Circuit of the State of Louisiana
in this case. Applicant request extension of time due her covic-19 her illness, as Baldwin, pro se

I

would not usually ask for a 60-day extension request, See (exhibit 3) as Baldwin, moves this
Court to extend the time for the filing of the certiorari initial Brief, and as grounds therefore,
states:
1. The issues in this case are complex and involve the constitutionality and of a state and
federal statute. 2. Additional time is necessary to prepare a writ of certiorari and given the
unusually massive size of the record in this case, and the more than fourteen-years (14) prior
litigation history that is also relevant to this appeal, an extension of sixty (60) days is requested
to review the materials, and draft the informal opening brief. 3. There will be no prejudice to
Appellee in granting this request for extension of time to file the Initial Brief. 4. This Motion is
made in good faith, and not merely for purposes of delay.
WHERFORE, Appellant respectfully requests that this Motion be granted, and that the deadline
for the filing of the informal opening brief be extended by sixty (60) days, to and including,
December 4, 2021.
:tralMS*rhmittei
/'
/
/

4

Lioraa Baldwnr
7029 Villada St.
North Las Vegas, Nevada 89084
(512) 778-0428
Itistime3@yahoo.com

